<html>
<title> - HONORING HEROES: MEMORIALIZING OUR NATION'S VETERANS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








          HONORING HEROES: MEMORIALIZING OUR NATION'S VETERANS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         THURSDAY, JUNE 7, 2018

                               __________

                           Serial No. 115-64

                               __________

       Printed for the use of the Committee on Veterans' Affairs


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov




                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
35-727                     WASHINGTON : 2019 























                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
AMATA COLEMAN RADEWAGEN, American    JULIA BROWNLEY, California
    Samoa                            ANN M. KUSTER, New Hampshire
MIKE BOST, Illinois                  BETO O'ROURKE, Texas
BRUCE POLIQUIN, Maine                KATHLEEN RICE, New York
NEAL DUNN, Florida                   J. LUIS CORREA, California
JODEY ARRINGTON, Texas               CONOR LAMB, Pennsylvania
CLAY HIGGINS, Louisiana              ELIZABETH ESTY, Connecticut
JACK BERGMAN, Michigan               SCOTT PETERS, California
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   CONOR LAMB, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





















                            C O N T E N T S

                              ----------                              

                         Thursday, June 7, 2018

                                                                   Page

Honoring Heroes: Memorializing Our Nation's Veterans.............     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman....................................     1
Honorable Elizabeth Esty, Ranking Member.........................     2
Honorable Phil Roe, Chairman, Full Committee on Veterans Affairs.     4

                               WITNESSES

Honorable Randy C. Reeves, Under Secretary for Memorial Affairs, 
  National Cemetery Administration, U. S. Department of Veterans 
  Affairs........................................................     6
    Prepared Statement...........................................    25

        Accompanied by:

    Mr. Ronald E. Walters, Principal Deputy Under Secretary for 
        Memorial Affairs, National Cemetery Administration, U. S. 
        Department of Veterans Affairs

Honorable William M. Matz, Jr., Secretary, American Battle 
  Monuments Commission...........................................     8
    Prepared Statement...........................................    27
Mr. Gerardo Avila, Deputy Director, Medical Evaluation Board/ 
  Physical Evaluation Board/Department of Defense Correction 
  Board, National Veterans Affairs and Rehabilitation Division, 
  The American Legion............................................    11
    Prepared Statement...........................................    29
Mr. Ken Wiseman, Associate Director, National Legislative 
  Service, Veterans of Foreign Wars..............................    13
    Prepared Statement...........................................    32

 
          HONORING HEROES: MEMORIALIZING OUR NATION'S VETERANS

                              ----------                              


                         Thursday, June 7, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 11:13 a.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bost, Coffman, Radewagen, Roe, 
Esty, and Lamb.

            OPENING STATEMENT OF MIKE BOST, CHAIRMAN

    Mr. Bost. Good morning and welcome. This oversight hearing 
of the Committee of Disabilities and Assistance and Memorial 
Affairs will now come to order.
    Before we begin, I want to welcome the Full Committee 
Chairman, Phil Roe, to the hearing with us today. Today, we are 
going to be discussing how our Nation honors veterans who have 
passed on.
    It is appropriate that we are holding this hearing so close 
to Memorial Day and yesterday's anniversary of D-Day, and the 
100th anniversary of the deadliest day of battle of Belleau 
Woods when General John J. Percy ordered a counteroffensive to 
drive the Germans out of Belleau Wood during World War I.
    I recently had the privilege to travel with Chairman Roe to 
visit some of the most hallowed ground in the world, including 
that very battlefield and others.
    On June 6th, 1918, the U.S. Marines, under the command of 
General James Harbord, led the attack against four German 
decisions in Belleau Wood.
    I couldn't help but think about that battle as we walked 
through the cemetery and the woods itself. Belleau Wood is very 
important to me, not just because I am a Marine, but one of the 
Marines who fought at Belleau Wood, Private Paul Stout, was 
born in Jackson County, Illinois, right near my hometown. He 
survived the battle of Belleau Wood, but he fell July 19, 1918, 
less than a month later while the Marines were advancing 
through the French countryside.
    My American Legion post, my home American Legion post, 127 
in Murphysboro, Illinois, now bears the name of Paul Stout. I 
thought about Paul Stout, Private Stout, and the rest of those 
determined and bullheaded Devil Dogs who spent June 6, 1918, 
repeatedly charging entrenched German forces with no thought of 
regret, and too many men are still there.
    But by the end of that day, Marines had suffered more than 
1,000 casualties. It was the bloodiest day of the battle, which 
went on for almost 4 weeks. Eventually, the Marines drove the 
Germans out, but at a horrible cost.
    By the event of the battle of Belleau Wood, almost 10,000 
Americans were dead, wounded, or missing in action. And walking 
among the graves of those brave men who fought and died so far 
from home was one of the most moving experiences of my life.
    It was overwhelming to think that each headstone was a 
monument to a husband, a father, a son, or a brother who didn't 
make it home. It was unforgettable. It was also incredibly 
inspiring.
    That visit reminded me of how much I owe to these fallen 
heroes, and I am very grateful that I was able to honor them. 
Every American should have that experience. We all need to be 
reminded that the freedom we enjoy is because of the brave men 
and women who serve in our Armed Forces. We also need to ensure 
that future generations understand that our freedom will always 
depend on the service and sacrifice of our Nation's veterans.
    The NCA and the ABMC are responsible for maintaining 
national cemeteries, not just to demonstrate our gratitude, but 
to help inspire our children and our grandchildren to follow 
the example of patriotism and service embodied by those resting 
in these cemeteries. That is the only way the United States 
will continue to be a free country.
    This is why this hearing is so important. As Chairman of 
this Subcommittee, I don't hear many complaints about the NCA 
and ABMC taking care of our national cemeteries, but there is 
always more we can do. And certainly, I know the NCA and the 
ABMC have ideas for improvements. And I am looking forward to 
hearing from our witnesses about ways that we can better honor 
these extraordinary Americans.
    So thank you again for being here today. I will now yield 
to Ranking Member Esty for any opening remarks she may have.

      OPENING STATEMENT OF ELIZABETH ESTY, RANKING MEMBER

    Ms. Esty. Thank you, Mr. Chairman. And I, too, note that it 
is very appropriate that we are having this hearing today, a 
day after the 74th anniversary of D-Day, and I must note, my 
husband's birthday. It is very easy to remember.
    I have been reflecting on our duty as Members of this 
Committee to ensure the respectful and dignified 
memorialization in perpetuity of America's military veterans. 
And I want to welcome Under Secretary Reeves to his new 
position, leading the National Cemetery Administration, and I 
am looking forward to his ideas on how to further improve how 
the agency deals with veterans' families. And I want to let you 
know that, like Chairman Bost, I hear very good reports. And so 
we want to continue to ensure that we are serving veterans and 
their families in the way we would all want to.
    Because this is the first hearing since 2014 on NCA, I want 
to take a moment to publicly recognize the heroism of the 
National Cemetery's workforce in Florida and Puerto Rico 
following the hurricanes last year.
    This Committee was receiving daily updates on VA asset 
damage and operational status. And on the very first day, on 
the very first day, the reports were that cemetery employees 
were reporting in for duty within hours of the storm passing in 
each case. Burials continued as scheduled within 36 hours 
despite power outages and damage.
    It was heroic. It was heroic of these people, many of whose 
homes were destroyed or damaged or flooded, whose families 
were, themselves, in distress, and I don't think they have ever 
properly gotten the credit and the thanks from Congress and the 
American people that they deserve for continuing to do their 
duty and to ensure that we properly memorialize and care for 
those who have served this country.
    So I want you to know how much we appreciate that. And we 
recognize there is no amount of compensation that can provide 
and compensate for that sort of devotion to duty. And I wanted 
to make sure we recognize that in our hearing today.
    I also want to recognize and welcome Secretary Matz. 
Congratulations on the work the Commission is doing all over 
the world to ensure that the cemeteries and memorials honoring 
fallen American servicemembers continue to be as beautiful and 
hallowed places of remembrance as we would want them to be, but 
more and more, as places to educate visitors who have no direct 
memory or knowledge of the battles that were fought nearby.
    This Committee recently visited the American cemetery in 
Normandy. I understand that there is a new visitor's center and 
that if the site is to be preserved, the Commission has plans 
to design and install new pedestrian walks. And having visited 
that cemetery with my children about 15 years ago, I can tell 
you, for them, as young Americans, it was so remarkable that 
visit of just seeing row after row after row and contemplating 
the young men who fell who are now younger than my children are 
now, was striking and overwhelming.
    It is very different than what you read in textbooks. It is 
vivid and remarkable. So preserving those sites, and again, the 
education aspect is part of what our Nation needs to 
memorialize and to remember and to understand the consequences 
were and what our responsibilities are in the world.
    I look forward to hearing from you Secretary Matz about 
these plans and what is planned for next year's 75th 
commemoration of D-Day.
    I want to also welcome our good friends from the VFW and 
The American Legion, our witnesses here today. You always join 
us and provide incredibly important perspective and feedback 
about what is happening on the ground. It is not just the laws 
we pass and regulations and the funding, it needs to work for 
people. And you help ensure that we understand whether our good 
intentions are being realized for the families and the veterans 
we are honored to serve. Your work with the Subcommittee is 
greatly appreciated and greatly needed.
    Mr. Matz, I want to, again, let you know how much we 
appreciate your work on toxic exposure. We are very proud--Mr. 
Wiseman. Where is Mr. Wiseman? I am sorry. Okay. I skipped a 
line here. We know you are moving on. Moving on to be the 
Virginia State VFW commander, but please know our gratitude to 
you because of your work, in part, on your fierce advocacy on 
toxic exposure. We are so pleased to have been unable to move 
forward on Blue Water veterans, an issue near and dear to your 
heart, and that of many veterans.
    I can tell you in my district and Chairman Bost's district, 
and around this country, that has been a long, hard-fought 
battle, and you have helped us get near to the finish line. And 
I want to thank you for your work on that, for Vietnam veterans 
exposed to Agent Orange in Thailand whose children were born 
with spina bifida will also appreciate so much your hard work. 
So--
    Mr. Wiseman. Thank you.
    Ms. Esty [continued].--thank you. And wish you well on your 
next endeavor. Again, I want to thank the Chairman and the 
Chairman for holding today's hearing. We look forward to your 
testimony.
    Again, thank you all very much for the work you do serving 
our Nation's veterans.
    Mr. Bost. Thank you, Ms. Esty. Chairman Roe, do you have 
any opening remarks?

  OPENING STATEMENT OF PHIL ROE, CHAIRMAN, FULL COMMITTEE ON 
                        VETERANS AFFAIRS

    Mr. Roe. Thank you, Mr. Chairman. And I am feeling a little 
bit outnumbered here with all these Marines. And Mr. Coffman 
could be in the Army or Marines, so what we will do, is we will 
have them, two Army and two Marines, if that is okay with you, 
Mr. Chairman.
    I want to thank you all both, and Ranking Member Esty, for 
holding this hearing today. And one of my priorities is 
ensuring that our Nation's veterans receive a proper resting 
place.
    Last month, the Chairman mentioned, I and others on the 
Committee were honored to visit several overseas cemeteries and 
monuments for the brave men and women who served in World Wars 
I and II. And some of you already may know this, but before 
World War I, most of our fallen heroes were buried on the 
battlefield. And after the Great War, our country realized that 
some families may want to bring their loved one's home who 
perished in battle back to the United States, while others may 
want them buried overseas where they fell in service to our 
country.
    And as the Chairman mentioned, in the battle of Belleau 
Woods, we walked--I literally cannot imagine going across that 
wheat field, which is still a wheat field today, in machine gun 
fire that those men did. It is literally amazing. And also to 
be at that cemetery to see where walls, literally walls of 
marbled names that they never found that were missing in that. 
And really remarkable.
    And also, that this particular battle became of very 
interest to me as I learned more about it, is that it is the 
second infantry division, which I was in, was stood up in 1917. 
It was 100 years old last year. That was our 100th 
anniversaries, the second AD. And it is the only American Army 
Division that has ever been commanded by a Marine. And Camp 
Lejeune, North Carolina, obviously named after General Lejeune 
who also commanded the second Army Division. And these Marines 
were assigned to the second infantry division.
    So there was a lot of history for me that I had really 
passed over in school and really got deep into. And it is an 
amazing part of our history. And most people in this country 
don't realize the ferocity of those battles. And I mean, this 
was hand-to-hand combat, when you are looking at four 
divisions. And we are looking at a very small piece of real 
estate. It wasn't very big at all. So really, rather amazing.
    And since overseas cemeteries are thousands of miles from 
American soil, the United States established the American 
Battle Monuments Commission, or ABMC, in 1923 to ensure that 
those graves are properly maintained. And I can assure you, Mr. 
Director, they are properly maintained.
    Now these cemeteries memorials are a symbol of our Nation's 
commitment to preserving democracy. And I will never forget 
visiting these incredible monuments for the brave men who made 
the ultimate sacrifice in service to our great Nation.
    One experience that resonates with me personally, is I 
visited the graves of three of my Tennessee brothers, Robert 
Tester, Glenn Tester, and James Tester, who lost their lives in 
service to our Nation during World War II. The Tester brothers 
perished in three separate countries during the war, but at the 
request of their family, they were buried side-by-side at the 
Henri-Chapelle American Cemetery. And these young men came from 
one of, I think, nine children, this family. And they grew up 
in a little community called New Victory, Tennessee, which is 
in Washington County, where I live.
    So seeing that they were laid to rest, reminded me of the 
sacrifices that were made to secure the future of our country, 
and I am forever grateful for their patriotism.
    As I look over their headstones, and I have pictures of 
them on my camera, I remember that these men were more than 
just soldiers, but they were men who had left the comfort of 
their homes, and tragically, never returned.
    I couldn't stop thinking about what their mother and other 
family members must have felt when they learned about the three 
deaths. I can't imagine how hard it must have been for their 
mother to have to have made the choice to bury them so far from 
home. Yet, I can't help but think that she made the right 
choice.
    The Henri-Chapelle Cemetery is beautifully landscaped and 
cared for, and respectfully maintained. It is an appropriate 
resting place for the Tester brothers and their comrades in 
arms.
    And I would certainly, as Ms. Esty said, encourage any 
Americans traveling abroad to travel to any one of these sites 
and be inspired by the stories of those who are there now.
    I would also like to thank the NCA and the ABMC for their 
efforts to memorialize our veterans accordingly, and I look 
forward to hearing from all the witnesses today about how we 
can improve, how we honor our Nation's heroes.
    And again, Chairman Bost, thanks so very much for holding 
this hearing, and I yield back.
    Mr. Bost. Thank you, Mr. Chairman.
    First off, I ask all other Members waive their opening 
remarks as per the Committee's custom. I want to welcome the 
witnesses who have joined us this morning, and thank you for 
taking the time to be here today.
    Our first witness is the Honorable Randy C. Reeves, who is 
the Under Secretary of Memorial Affairs. He is accompanied by 
Mr. Ronald E. Walters, the NCA's Principal Deputy Under 
Secretary of Memorial Affairs. Also joining us today is the 
Honorable William M. Mats, Jr., who is the Secretary of the 
American Battles Monument Commission.
    Testifying on behalf of The American Legion is Mr. Gerardo 
Avila, who is the Deputy Director of the MEB and PEB and DoD 
Correction Board.
    Joining us also for the--is this our last time?
    Mr. Wiseman. For this Committee, it is. I will be 
delivering the burn pit testimony this afternoon.
    Mr. Bost. Okay. All right. Well, thank you for your service 
and everything you have done here. But VFW is Mr. Ken Wiseman, 
the Associate Director of the National Legislative Services.
    So welcome to all of you. I want to remind the witnesses 
that your complete written statement will be entered into the 
hearing record. And before we begin, I want to--we need to 
understand that the Under Secretary Reeves graciously reworked 
his schedule so he could be here for most of the hearing, but 
due to a long-standing commitment, he has to leave early to 
catch a plane, and we will understand that.
    But Principal Deputy Under Secretary Walters will remain 
here at the hearing and be available to answer questions for 
NCA issues.
    Under Secretary Reeves, you are recognized for 5 minutes.

             STATEMENT OF HONORABLE RANDY C. REEVES

    Mr. Reeves. Thank you. Chairman Bost, Ranking Member Esty, 
and distinguished Members of the Subcommittee, I am deeply 
honored to be here to provide an update on the National 
Cemetery Administration. I appreciate being here with Secretary 
Matz, who is a strong partner of the VA.
    The Monuments Commission, the ABMC, continues to do great 
work, and I thank you for that. I am honored to be here, also, 
with our key veteran's service organization partners from The 
American Legion, and from the VFW, who provide critical support 
to us and to the veteran community.
    Here with me, also, from my staff, as you mentioned, is Ron 
Walters, who is my Principal Deputy Under Secretary.
    It is, of course, my greatest honor to be able to serve 
America's veterans and their families as the sixth Under 
Secretary of Memorial Affairs at the National Cemetery 
Administration.
    Over the past few months, I have traveled across the 
Nation, and I continue to be in awe of the commitment and 
dedication of our NCA professionals.
    As Under Secretary, I have directed one simple vision for 
NCA, and that is, to ensure that no veteran ever dies.
    You die the first time when breath leaves you for the very 
last time, but you only truly die sometime in the future when 
no one tells your story or speaks your name. And I am committed 
to ensuring that our veterans don't suffer that second death.
    From this vision, we have established three key priorities 
that align with VA's core mission and NCAs long-range plan. 
These are: preserving the legacy, which is ensuring no veteran 
ever dies; providing access and choosing VA for our veterans; 
and partnering to serve veterans.
    I am pleased to note that in conversations that I have had 
with many Members of Congress, I have found that you share 
these priorities, and, again, you are helping us ensure that no 
veteran ever dies.
    NCA is dedicated to preserving the legacy of our Nation's 
veterans, and VA's Veterans' Legacy Program supports a series 
of partnerships between VA and academic institutions and engage 
university students to research veteran stories and reach our 
youngest generation by teaching K-12 students about the 
sacrifice of our previous generations.
    To complement Legacy, VA is creating an interactive Web 
site that will allow veterans' families to upload letters, 
pictures, photos, and videos to be shared with the public. And 
one day, visitors will be able to use smart phones to scan a 
veteran's headstone and learn their story. That is the future. 
And I can tell you, the future is here now. I have seen it 
tested, and it works.
    Our second priority is to ensure that NCA continues to 
improve burial access and choice for veterans and their 
families. To accomplish this, NCA plans to open or expand 
existing VA national cemeteries while recognizing the need to 
provide burial options to rural and urban veterans.
    NCA will establish seven rural national cemeteries and five 
urban national cemeteries over the next few years. We 
appreciate the great support of Congress by passing the Black 
Hills National Cemetery Boundary Expansion Act signed by the 
President on May 25th, which will allow NCA to obtain land from 
the Bureau of Land Management adjacent to our existing 
cemetery.
    We are also appreciative of other recent legislation which 
expanded the casket and urn benefit for unclaimed veterans 
buried in State and Tribal cemeteries, and expanded the 
eligibility for medallion based on the date of death.
    The Subcommittee's support in getting these bills, and 
various others, is a reflection of your understanding in 
support of our enduring mission.
    Our third priority is to continue our valuable partnership 
with State and Tribal organizations through our Veterans 
Cemetery Grants Program. It is celebrating its 40th anniversary 
this year. And since 1978, the Grants Program has awarded over 
$766 million in grants, which funded 110 State and Tribal 
cemeteries in 47 States, Guam and Saipan.
    We look forward to your assistance as we keep moving 
forward with this valuable program, and these efforts are 
designed to meet NCAs strategic goal of providing reasonable 
burial access to 95 percent of eligible veterans. And we are 
also working on, what I call, the hardest 5 percent.
    Those that are hard to reach in our rural areas and those 
that have those long distances to travel and such so that they 
may also be honored.
    We are committed to find ways to reach them and look 
forward to working with you and many other partners, and I 
welcome Members of the Committees, as well as their staff to 
visit our national cemeteries at any time and to reach out to 
me personally for any meeting requests.
    Mr. Chairman, I thank you for allowing me to be here today, 
and I look forward to answering any questions that the 
Subcommittee may have. Thank you.

    [The prepared statement of Randy Reeves appears in the 
Appendix]

    Mr. Bost. Thank you. And Secretary Matz, you are recognized 
for 5 minutes.

          STATEMENT OF HONORABLE WILLIAM M. MATZ, JR.

    Mr. Matz. Mr. Chairman, Chairman Roe, and Members of the 
Subcommittee, thank you for this opportunity to discuss the 
mission, the operations, and the programs of the American 
Battle Monuments Commission. And the subject of this hearing, I 
noted, is honoring heroes, memorializing our Nation's veterans. 
And this is so appropriate to our agency mission. And that 
sentiment inspires the thoughts that I want to share with you 
this morning.
    Since the agency's establishment in 1923, our purpose has 
not changed, and it is to commemorate the service and the 
achievements of America's Armed Forces.
    We execute our mission by creating memorials worldwide 
where U.S. forces have served, and by maintaining overseas 
military cemeteries. These are shrines to our fallen and to 
those that fought by their side.
    Our first Chairman, General John Pershing, he set the tone 
for the Commission when he wrote that, and I quote, ``time will 
not dim the glory of their deeds.''
    These simple but very powerful words are, in fact, the 
foundation of everything we do. When the President selected me 
to serve as Secretary of the Commission, he presented me with 
an opportunity of a lifetime, one that I don't take for 
granted. Preserving these national treasures as symbols of 
selfless devotion and beacons of freedom, this is not a job for 
me, folks. It is a reverent calling. In fact, it is a duty for 
this former infantryman.
    Over this past Memorial Day weekend, we conducted 
ceremonies at all 26 of our cemeteries, in 10 countries, 
spanning four continents. And on Sunday morning of that 
weekend, the 27th of May, just 10, 12 days ago, I stood at a 
podium in Aisne-Marne American cemetery in France, it was one 
of the cemeteries that your codel had an opportunity to visit 
recently.
    The Aisne-Marne Cemetery and the Belleau Wood battlefield 
that you mentioned, sir, behind it honored those who fell in 
the Aisne-Marne campaign. Memorialized there, shoulder-to-
shoulder, are more than 2,600 soldiers and nearly 500 Marines 
who died during that campaign.
    Then on Sunday afternoon, 3 hours later, we were over at 
the Oise-Aisne American Cemetery, and I understand your visit 
did not permit you to go to that one, but we want you to 
sometime return and visit that one. But at the Aisne-Marne 
American Cemetery where we, again, offered our thanks and 
respect to those who died in service to our Nation. There are 
6,012 war dead buried in those beautiful grounds and 241 on the 
walls of the missing, most of whom lost their lives on nearby 
battlefields.
    One of the dead, one of the dead in that cemetery is 
Sergeant Joyce Kilmer, 165 Infantry, 42nd Division. He rests in 
Plot B, Row 9, Grave 15. Probably best known for writing the 
poem, Trees.
    He also wrote these prophetic words taken from the poem 
Rouge Bouquet, and I quote, ``There is on earth no worthier 
grave to hold the bodies of the brave than the place of pain 
and pride where they nobly fought and nobly died.''
    In July 1918, Kilmer's 42nd Rainbow Division was attempting 
to break German defensive position just a few kilometers from 
the cemetery. In 8 days of fighting, that Rainbow Division lost 
5,500 men. One of those men was Sergeant Joyce Kilmer. Then on 
Sunday evening of that same day, I stood at the Chateau-Thierry 
Monument, which you were able to visit, and we appreciate very 
much. This is not far from the Aisne-Marne cemetery, and we 
were there to dedicate a new visitor center.
    It tells the story of men and women, like Joyce Kilmer, 
providing historical context for events that occurred there 100 
years ago. And so on that Sunday, May 27th, three historic 
sites in honor and commemoration underscoring, in my view, the 
importance of this morning's themes are honoring heroes, 
memorializing our Nation's veterans.
    So what motivates a man to leave the safety of his trench, 
to crawl through barbed wire, to attack enemy positions with 
rifle and bayonet when artillery machine gun fire halts his 
unit's advance? How do we ensure that we never forget such 
courageous service and sacrifice?
    Since 2007 opening of our Normandy American Cemetery 
Visitors Center, ABMC has recognized its responsibility to 
answer those questions by telling the stories of the men and 
the women honored at these cemeteries and monuments, providing 
historical context for visitors now far removed from the events 
of the war years.
    No one had to tell our first visitors the story. They were 
the mothers, the fathers, the widows, brothers, sisters of the 
war dead. They did not seek nor require context. They knew all 
too well the story. They came to grieve, not to learn in the 
1920s, 1930s. They came to say farewell.
    Meticulously maintaining cemeteries and memorials is and 
will remain ABMC's core mission, but that alone is no longer 
enough to honor those who serve. The Commission must also 
preserve and communicate their stories of competence, courage 
and sacrifice. And so it goes to the Congresswoman's initial 
comments about education. The visitor center at Chateau-Thierry 
is the 7th the Commission has opened since 2007. Three more are 
in development, all with a common purpose, and that is, to 
enrich the visitor's experience and understanding of the 
importance of these sacred sites, and the significance of the 
historic events that led to their creation, and to educate our 
young children.
    We also pursued an educational outreach program in the 
United States. And we are doing this through partnerships with 
universities and organizations like the National History Day 
and the National World War II Museum in New Orleans.
    And, folks, I invite you to visit our educational program 
Web site at ABMCeducation.org to view the wealth of stories and 
lesson plans that are developed by teachers for teachers.
    We have begun to partner with the National Cemetery 
Administration on World War II content, tying the stories of 
national cemeteries to those from the overseas cemeteries.
    Through all of this, we have not forgotten, though, our 
core mission of building monuments to commemorate service and 
sacrifice.
    Last year, we dedicated a monument in Dartmouth, England 
commemorating the Allied build-up, training and actual 
launching of the D-Day invasion from the shores of England, and 
the commemorative bronze plaque there in the Britannia Royal 
Naval College, which served as the XI Amphibious Force 
headquarters in World War II which oversaw the command of the 
entire invasion force.
    Later this year, we are going to dedicate a U.S. memorial 
in the National War Memorial Park in Wellington, New Zealand, 
and a monument in Iceland commemorating U.S. primarily naval 
operations there in World War II is also in the early stages of 
development.
    So these two commemorations will bring the total number of 
ABMC memorials and monuments to 31. And, of course, next year, 
as has been already mentioned, we will commemorate the 75th 
anniversary of D-Day. To prepare for that historic event, we 
are refreshing the exhibits at the Normandy Visitors Center. 
Eleven years have passed since the original exhibits opened to 
the public. And over the next couple of years, we are also 
going to be improving the cemeteries' entrance, traffic flow, 
parking upgrade and add to existing comfort facilities, and, of 
course, revamp the security screening areas to better handle 
peak visitation periods.
    And I will tell you, we are able to do this as a result of 
Congress' $30 million one-time appropriation in 2016. And 
believe me, I think we are good stewards. We are putting all of 
that to good use.
    At the Pointe du Hoc Ranger Monument just west of Normandy, 
we are developing a site master plan to address the challenges 
posed by the dual need of providing visitors a positive and 
safe experience while protecting the integrity of this historic 
cultural landscape.
    With the support of the Subcommittee and by the authority 
of the public law, as you know, we assumed ownership of the 
Lafayette Escadrille Memorial Cemetery just outside Paris in 
January 2017. This memorial honors American combat aviation 
pioneers, 49 of whom are interred in a crypt beneath the 
monument next to two French aviators.
    We will better tell their incredible story next year when 
we complete a conversion of the caretakers' cottage on the site 
into a small visitor's center, and we are working to improve 
the appearance of the memorial grounds to an ABMC standard 
while preserving their naturally rustic character.
    And finally, I am happy to report that the restoration of 
the Clark Veterans Cemetery in the Philippines, where we have 
interred 8,600 Americans, is progressing well.
    We are in the final stages of improvements in the plot 
areas where the headstones have been partially buried and 
unreadable, really, since the volcanic eruption of Mt. Pinatubo 
in 1991.
    And I want to thank the National Cemetery Administration, 
the Honorable Randy Reeves here, for partnering with us to 
provide more than 3,000 new headstones to replace those that 
were damaged beyond repair.
    So, I say to the Committee, all of these programs and 
projects have a singular focus: to honor and to memorialize 
America's Armed forces, our heroes, for their unselfish and 
their dedicated service and sacrifice.
    The poet, Archibald MacLeish, served as an ambulance 
driver, later as an artillery officer in World War I. 
MacLeish's poem, The Young Dead Soldiers, includes this very 
eloquent and timeless challenge. ``They say, we were young, we 
have died. Remember us. They say, we leave you our deaths. Give 
them their meaning.''
    So many have given us their deaths. It is for us and our 
children for generations to come to give them meaning. That is, 
and it will remain the mission of the American Battle Monuments 
Commission. Mr. Chairman, that concludes my remarks, and I 
welcome any comments you might have.

    [The prepared statement of William M. Matz appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Secretary. Mr. Avila, you are 
recognized for 5 minutes.

                   STATEMENT OF GERARDO AVILA

    Mr. Avila. NCA's mission is simple: to honor veterans and 
their families with final resting places in national shrines 
with lasting tributes that commemorate the service and 
sacrifice to our Nation. This mission can be traced back to 
President Abraham Lincoln.
    On July 17, 1862, President Lincoln signed legislation 
authorizing the President of the United States the power to 
purchase lands and establish national cemeteries to bury 
soldiers who died in the service of the country.
    In 1973, a new law authorized the transfer of 82 national 
cemeteries from the Department of the Army to the Department of 
Veterans Affairs, essentially creating and establishing the 
NCA.
    Chairman Bost, Ranking Member Esty, and distinguished 
Members of the Subcommittee on Disability Assistance and 
Memorial Affairs, on behalf of National Commander Denise H. 
Rohan, and the 2 million members of The American Legion, thank 
you for the opportunity to testify on this important topic.
    NCA operates 135 national cemeteries, 33 solider lots, 
along with monument sites in 40 States and Puerto Rico. Under 
its current purview, NCA is responsible for perpetuity care of 
4.5 million interred veterans of every war and conflict, and 
family members.
    NCA also provides funding to establish and expand and 
improve 109 cemeteries in 47 States and territories, including 
Tribal trust lands.
    NCA provides headstones, markers, medallions to commemorate 
veterans service. From fiscal year 2017, NCA conducted over 
171,000 internments in national and State cemeteries, provided 
more than 361 headstones and markers, 13,000 bronze medallions, 
and 670,000 presidential memorial certificates.
    NCA's yearly customer satisfaction survey consistently 
receives ranks in the mid-1990s. The last result of the latest 
survey ranked at 99 percent on cemetery appearance, 96 percent 
on quality of service, and 99 percent of respondents say they 
would recommend to other veterans.
    The American Legion have engaged our membership, and we 
regularly hear veterans echo the sentiment found at NSA's 
yearly satisfaction survey.
    We frequently receive calls complimenting the level of 
professionalism displayed by NCA employees when rendering final 
respects for their loved ones.
    The families often share with The American Legion that NCA 
surprisingly well-managed, understanding, and extremely 
helpful, which is quite contradictory to the expectations they 
had considering NCA is a division of the Department of Veterans 
Affairs, the second largest bureaucracy in the Federal 
Government.
    Ensuring veterans receive their postmortem respect they 
deserve is a priority of The American Legion. In 1962, The 
American Legion created and established the Graves Registration 
at Memorial Affairs Committee, now known as the National 
Cemetery Committee, an internal committee designed to focus on 
these important issues impacting all veterans.
    The American Legion maintains the professional staff 
dedicated to formulating and recommend to our National 
Executive Committee through the Veterans Affairs and 
Rehabilitation Commission, policies, plans, and programs as 
they relate to the National Cemetery Administration, and the 
internment of veterans, Active Duty servicemembers and their 
dependents.
    Its response to issues and concerns, The American Legion 
adopted two resolutions at our 2016 National Convention: The 
Resolution No. 237, The American Legion supported legislation 
to amend the Code of Federal regulation 38-632 and specify the 
VA recognize accredited representatives be authorized to apply 
for a headstone, marker, or a medallion in the absence of next-
of-kin.
    This commonsense resolution was created because we have 
seen a number of cases where a deceased veteran was not able to 
receive a grave marker or have placement issue due to damage 
simply because the relative did not make the request.
    The American Legion also created and passed Resolution No. 
9, allowing us to support the transfer of land from the Bureau 
of Lands Management to NCA to expand the Black Hills National 
Cemetery in South Dakota. Two weeks ago, on May 25th, President 
Trump signed legislation transferring approximately 200 acres 
to expand the cemetery.
    The passing of this legislation confirms the commitment and 
obligation we have to honor the memory of those that have 
served. The American Legion is not aware of any obstacles to 
access for any veteran wishing that their final resting place 
be a cemetery operated by the NCA.
    That stated, we do receive inquiries and concerns on two 
topics: The issuing of NCA headstones and markers for veterans 
buried in private cemeteries, and wait times when calling the 
scheduling office in St. Louis, Missouri.
    It is our sincere hope that VA, NCA, and this Committee 
take a closer look, identify, and take the necessary 
corrections to the discrepancy between veterans who are 
authorized a headstone or marker in a private cemetery, and 
those who are not, and eliminating the wait times at the 
scheduling office.
    Ensuring that those who have selflessly raised their right 
hand in defense of the Nation receive the honorable and 
respectable final resting place they deserve is the priority of 
The American Legion. And by action of this Committee, we can 
see it is for you as well.
    Chairman Bost, Ranking Member Esty, and distinguished 
Members of the Committee, thank you for the opportunity to 
share the position of 2 million members of this organization. I 
look forward to any questions you might have.

    [The prepared statement of Gerardo Avila appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Avila.
    Mr. Wiseman, you are recognized for 5 minutes.

                    STATEMENT OF KEN WISEMAN

    Mr. Wiseman. Chairman Bost, Ranking Member Esty, and 
Members of the Subcommittee, on behalf of the Veterans of 
Foreign of the United States and its Auxiliary, thank you for 
the opportunity to testify on the important issue of how our 
Nation memorializes our veterans.
    VA's mission to provide veterans a final resting place 
worthy of their sacrifice to our Nation is a top priority for 
the VFW. While the National Cemetery Administration and the 
American Battle Monuments Commission generally do a good job, 
there are always ways to improve the delivery of memorial 
benefits to veterans.
    We appreciate this opportunity to highlight several areas.
    We hear from VFW posts around the world about the amazing 
work that ABMC is doing. VFW Post 605 in Paris France, reports 
that the ABMC efforts to care for cemeteries and monuments have 
resulted in some of the most emotionally moving experiences a 
visitor could have.
    The VFW urges the Subcommittee to support efforts by ABMC 
to establish visitor centers which would allow visitors to 
properly honor and remember those who are buried in the 
cemeteries.
    The centers will also allow for better use of staff so that 
they could focus on other management aspects of their job. The 
ABMC management of Clark Cemetery in the Republic the 
Philippines is another success story that the VFW is proud to 
report.
    VFW Post 2485 in Angeles City, the Philippines, notes that 
the repairs and maintenance of the cemetery are superior, and 
burials continue in a way that allows Americans to be buried 
there with honor.
    The VFW is very supportive of NCA's Veterans Legacy 
Project. VLP leverages technology to preserve history and 
spread awareness of the brave men and women buried in the 
cemeteries. Updates on each veteran can be provided to ensure 
the profile is accurate and truly reflects the life of the 
veteran.
    Modern technology will allow VLP to be viewed through a 
mobile application, and online enabling future generations to 
learn about the sacrifices made by generations that came before 
them.
    However, the VFW has learned that the call center for all 
VA-managed burials have become overwhelmed due to staffing 
issues.
    A surviving sister of a veteran reported that she was told 
it would be at least 6 weeks before a burial could be processed 
for her brother, the deceased veteran. This is unacceptable.
    The VFW calls for a review to ensure proper staffing is in 
place so that burials can be scheduled in a timely manner. And 
the Under Secretary has reached out to the VFW on this matter, 
and we appreciate his outreach.
    The VFW strongly supports passage of H.R. 5588, legislation 
that would transfer Mare Island Naval Cemetery to NCA for 
management. The U.S. Navy use this cemetery as the final 
resting place for more than 800 veterans.
    Included in this number are three medal of honor 
recipients. One of them is James Cooney. He was born in Ireland 
and emigrated to the United States. He enlisted in the United 
States Marine Corps and deployed with the first Marine Regiment 
to the Boxer Rebellion in China.
    Private Cooney was awarded the Medal of Honor, the highest 
award of valor that can be bestowed upon an individual in the 
U.S. military for his distinguished service in the presence of 
the enemy.
    Yet, VA has refused to take responsibility of ensuring that 
Private Cooney and the other honorable veterans buried at Mare 
Island Naval Cemetery has a final resting place worthy of their 
service to our Nation.
    These are photos of headstones at Mare Island Naval 
Cemetery. This is unacceptable. And the VFW wants to see, and 
is willing to work with both the Committee and NCA to ensure 
that proper steps are taken.
    The Mare Island Naval Cemetery is in disrepair, and the VFW 
will not rest until it is fixed and properly maintained. The 
lasting legacy of those who have served our countries on 
display in cemeteries and is a testament to the cost of 
freedom.
    While our Nation remembers the service of veterans who are 
no longer with us on Memorial Day, NCA and ABMC ensure that a 
daily reminder withstands the test of time.
    Mr. Chairman, this concludes my testimony. And I want to 
thank you and the Ranking Member for the kind words at the 
beginning of the hearing. Your staff was key to all of the 
success that we have had so far with the Blue Water Navy bill.
    I want to particularly thank Carolyn, Chris, and Maria for 
their help. They have represented you well, and I personally 
thank them. One of my key projects next year as a State 
commander and as an accredited service officer, is to find 
every Blue Water Navy sailor and every surviving spouse in the 
Commonwealth of Virginia.
    On January 1st, the VA will be getting a whole lot of 
claims from Virginia. I thank you, I yield back, and I welcome 
your questions.

    [The prepared statement of Ken Wiseman appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Wiseman.
    Just so you know, I am going to go ahead and start the 
questioning. So I will yield myself 5 minutes for questions.
    Secretary Matz, in your testimony, we know that Congress 
has recently passed legislation allowing the AMBC to take 
jurisdiction over the Lafayette Escadrille Memorial Cemetery 
outside of Paris.
    This memorial and cemetery, which I had the opportunity to 
visit last month, includes a final resting place for 49 
American aviators who helped train French pilots before we 
entered World War I. I understand that the site was in rough 
shape when we took it over, but let me tell you that it looks 
very good, and, obviously, headed towards looking even better.
    Can you please describe the work that you are doing there 
right now?
    Mr. Matz. Yes, sir, we took ownership in January of 2017. 
And prior to that, we partnered with what, heretofore, had been 
a French foundation and the French Government had actually 
owned the cemetery and the land. And from that partnership, we 
got $1.7 million from the French Government and from those 
private funds, and did a lot of restoration there 2015 through 
2016.
    We cleaned, repaired the stonework, did some releveling, we 
did some repointing, repaired plaster and the--of course, if 
you got down into the crypt and the vault, that was leaking. So 
we put a lot of money into that and upgraded that. Also 
painting, metal work, et cetera.
    What we have planned now, and as you say, you went through 
there, we have a project, as I mentioned very briefly in my 
opening comments, to turn the old caretakers' cottage into a 
small visitor's center.
    And I will tell you, I report that is going along very 
nicely. Completion is anticipated next Memorial Day, and that 
should be a very nice dedication.
    We are also in the process of looking at waterproofing and 
repaving the memorial surface there. And that is at a cost of 
$1 million. Improving a disabled access ramp that we need there 
for folks. And also, replacing paths and curbstones. We also 
have a horticulturist in our Paris office, has been spending a 
lot of time there in the grounds to bring the grounds up to a 
standard, and the woodland areas up to a standard.
    So these are the things we are looking at there. And in 
fact, I would say, folks from our Paris office are out there 
probably on a weekly basis seeing how we can continue to repair 
and bring that up-to-date.
    Mr. Bost. That is wonderful because it has an unbelievable 
potential, and I know you will do well with that.
    Mr. Matz. Well, thank you, sir.
    Mr. Bost. Under Secretary Reeves, can you describe for me 
the Legacy, the Preserving the Legacy Program in detail and 
what you see as a vision there?
    Mr. Reeves. Mr. Chairman, thank you. The Veterans Legacy 
Program itself is set up to be able to have both an educational 
component that I discussed before and also what I like to look 
at as my prime mission. I am the Under Secretary for Memorial 
Affairs, so it is to memorialize and remember those who have 
served our country so well.
    Through a number of different partnerships, and also 
partnerships with ABMC that were discussed earlier, we have 
awarded nine grants this year. The original program awarded 
three. So we have got that many, you know, universities and 
others who are doing the research and learning about those 
veterans, doing the lesson plans that are used in middle 
schools, high schools and others. But the other component is 
the component that we are developing so that you could walk up, 
as I said, with your smart phone and be able to put that smart 
phone in front of a headstone.
    It will decipher the arrangement of the letters on the 
headstone and pull up the information about that veteran and 
their service; in most cases, where we are able to, the service 
that they provided and the things they did after military 
service. And when I said that the future is here, I have seen 
the demonstration at the University of Central Florida, and I 
was able to walk up to a headstone, it accessed the database, 
and I was able to see what that veteran had done, both before 
and after.
    And I just want to bring this, you know, to a little bit of 
reality about what it is doing for students out there. I spoke 
to a graduate student at the University of Central Florida, and 
I asked, what does this program mean to you? And he looked at 
me with tears in his eyes, and he said, I was able to bring my 
veteran back to life.
    And what he meant by that is it is a World War I veteran, 
African American who have served actually in Europe that had 
been lost through history. And through his research and his 
learning, he was able to tell that story, and now that veteran 
will never die.
    Mr. Bost. Thank you. My time is expired.
    Ms. Esty, I recognize you for 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman. And again, I want to 
thank all you gentlemen for your hard work joining us here 
today and making yourselves available to help ensure that we 
all fulfill our duty to honor and memorialize those who have 
served this country.
    Under Secretary Reeves, I have three areas I am hoping to 
cover in the less than 5 minutes I have. One, is to Mr. Avila's 
question about clarifying the criteria for headstones in 
private cemeteries, that is questions that we often get as 
Members of Congress, and I think that would be helpful.
    Two, on the wait times, which I know you are working on, 
but that was raised by both Mr. Avila and Mr. Wiseman. And 
again, I know that you have got some plans, and if you can 
briefly share with us your proposals going forward, I think 
that would be helpful for us to know. And also, hopefully, 
encourage veterans who may be watching or reading about this 
about how important it is to bring these concerns forward. That 
is the only way we can fix things is if we know about them.
    And the last is on Mare Island. You and I discussed this 
yesterday. Thank you, Mr. Wiseman. And I know that Ms. Brownley 
was hoping to join us, I think she had a scheduling conflict. 
As the daughter of a Navy man, grew up in Northern California, 
I am familiar with that. I will be seeing the site in the next 
week or two.
    Mr. Reeves, we talked about this, Under Secretary Reeves, 
if you can talk about your proposal at this point to begin to 
address the sorry state of repair of the headstones, et cetera. 
And Mr. Bilirakis is not with us here. He is the cosponsor of 
that bill, and I would like you to address, if you can, all 
three of those. Thank you.
    Mr. Reeves. Absolutely.
    First of all, I will go ahead and address the wait times 
first, if that is okay.
    The first thing I want to tell you is I called the call 
center myself this morning before I came here, at what would 
normally be a peak time. I went into the call queue and I was 
talking to a representative in less than 5 minutes. Okay? And I 
asked some questions about workload and those kinds of things, 
because I want to know what is going on in the field.
    Secondly, one of the places I went first was the call 
center. I will be returning personally to the call center later 
this month. As you know, we provided copies of our plan that we 
are working on. I want to be fully transparent. We provided to 
both our VSO partners and to, also, your staff, and will 
provide it to anybody that would like to see what we are doing 
to rectify what I see as some issues that we have got there.
    First of all, to that, one of the problems that we had that 
was showing, you know, peak, more than peak, you know, call 
times, had to do with our phone system. And we are working with 
our IT folks in VA getting, you know, very good support from 
that. And we will be, you know, correcting that. We have 
corrected some of the issues.
    And also to the issue that Mr. Wiseman specifically, the 
specific case. I am going to be talking to that individual 
myself, because I am going to tell you, whether it is 6 weeks, 
whether it is actually 2 weeks, or any other time--and my 
numbers show me that it was about 2 weeks, and they may be 
wrong, so I am not assuming anything. So I am going to be 
talking to that individual myself.
    If we have things like that, it doesn't go to my philosophy 
and our belief that we only have one time to get it right. That 
one time we don't get it right is one time too many. And I am 
going to correct that, I can assure you.
    And we will work with the Committee and staff to provide 
any further information that you need. But I will be very 
detailed in those responses and the information I gave you. 
Okay?
    Secondly, I will now go to Mare Island, because that is a 
little more complicated. First of all, I want to tell you that 
I was in California last week for some other events. And 
because this means so much to me, I went to Mare Island myself. 
And I am going to tell you, Mr. Wiseman, thank you for the 
passion that you and VFW have to bring the attention to this. 
My heart is broken. I got pictures, too. And I don't like them. 
And I am very upset by what I saw.
    But beyond that, now I have to look at what really needs to 
be done. As soon as we found out about this, and this was in 
the news, the National Cemetery Administration reached out to 
the city of Vallejo, California.
    They also reached out to the Navy. And we have been working 
with the Navy to bring forth an IRT grant that would refurbish 
that cemetery. And I believe that should be approved fairly 
quickly. I can't speak for the Navy. I am not going to speak 
for their process, but I believe it should be approved fairly 
quickly. I think there is a good chance of that.
    And then secondly, we have committed to doing whatever we 
need to do to replace headstones, or anything else that is 
there, to bring that to a standard where those veterans and 
their family members and others that are there, will be 
appropriately honored.
    I do realize that Mare Island was transferred to the city 
of Vallejo in 1996, and there has been nothing to keep it in 
repair since that time, as far as I can tell.
    I am not here to cast aspersions or throw rocks at anyone. 
What I am here to do is to tell you that what we need to focus 
on right now, I believe, is what steps we can take immediately. 
And those things that we are doing, that I have just described, 
to make sure that those veterans that are there are 
appropriately honored.
    I will say one thing, and this is not anything other than 
the fact that I feel personally that we need to be careful 
about every time someone does, because there was an MOU between 
the Navy and Vallejo to keep this cemetery up. I would 
recommend that we be careful about immediately going to, say, 
we should take over something every time someone doesn't meet 
their obligation, because that could set a precedent that, you 
know, that maybe we don't want to. But that is a matter for the 
Committee and for Congress to consider, not me.
    And then if I have answered that, then the headstones, and, 
let's see, I am going to have to get just a little bit of 
information on headstones.
    I think the question was the inscription for the spouse, 
right? Is that correct?
    Mr. Walters. Correct.
    Mr. Reeves. Okay. We can't provide inscription for spouse 
or dependent on a headstone that is currently in a private 
cemetery, and that is based upon the statute. So we are 
following the law. And I can't, you know, ask or suggest, but, 
you know, if that is something that Congress might take up, you 
know, that might be appropriate.
    And then we do have a legislative proposal that would allow 
us to do that. And I would like to be able to talk to your 
staffs and others, and our VSO partners, to be able to get more 
information on that for you and more detailed information.
    Ms. Esty. Thank you very much. I went over time. But--
    Mr. Reeves. I am sorry.
    Ms. Esty. No. But I appreciate that and the transparency 
and importance of--again, on Mare Island, I think we need to 
start with getting it to an appropriate state where it should 
be, and then we will continue to stay at the table, and do our 
best to get it right.
    Again, I want to thank you for your effort.
    Mr. Reeves. And thank you for that, because, in any case, 
we need to focus first on honoring our veterans.
    Ms. Esty. Absolutely.
    Thank you.
    Mr. Bost. Thank you, Ms. Esty.
    Mr. Reeves. Mr. Secretary, I would like to extend this 
until 12:30, sir.
    Mr. Bost. Okay. That is fine.
    Mr. Reeves. I am going to extend my--
    Mr. Bost. We are just glad to have you here.
    Mr. Reeves. They will just have to go fast, sir
    Mr. Bost. All right.
    Mrs. Radewagen, you are recognized for 5 minutes.
    Mrs. Radewagen. Thank you, Chairman Bost, and Ranking 
Member Esty for holding this hearing today. Thank you to the 
panel for your testimony. Honoring our fallen heroes is an 
important, sensitive issue, and I am glad we can hold this 
hearing today to ensure that we get it right.
    I would like to focus on services for our veterans and 
families in remote and rural areas. For example, my home 
district of American Samoa is thousands of miles from the 
nearest veteran cemetery, and families of these veterans do 
have options for honoring their fallen loved ones in the form 
of VA-issued grave markers. This is a very good program. 
However, I believe it is being underutilized and could benefit 
from some improvements.
    American Samoa is beautiful but small. Small enough that we 
don't have street addresses for mail to be delivered, and we 
instead have to rely on P.O. boxes. The VA-issued grave markers 
can't be delivered to P.O. boxes and need to be delivered to a 
physical address. As you can see, this presents a problem for 
my district. Fortunately, our local VSOs and the good folks at 
our local VA clinic have established a workaround and will help 
facilitate the delivery by holding the marker at the clinic for 
pick-up. However, this workaround process is not always 
immediately apparent to my constituents.
    While VA reported to my office that no grave markers have 
ever failed to be delivered once ordered, I believe the initial 
confusion on the instructions for a grave marker application 
regarding P.O. boxes means that not all families are taking 
advantage of this service. So Under Secretary Reeves, what 
improvements could the VA make to ensure that families in 
remote and rural areas who may not have access to a nearby 
burial option have the ability to honor their deceased loved 
ones, either with the grave marker program or other 
initiatives?
    Mr. Reeves. Thank you very much for that question. And I 
understand, having been briefed on this, you know, a little bit 
ago, is that, in the case of Samoa, that, I believe, is a 
misinterpretation both on our part, and I am going to take that 
for action, on what a P.O. box actually means. And in Samoa, I 
know that, and you can correct me if I am wrong, a P.O. box is 
actually, in most cases, a physical address. And we are now 
delivering them based upon the fact that those are actual 
physical addresses. And we are in the process of clarifying how 
we need to do that for our workforce also, so that people won't 
go through that.
    Because it says P.O. box, we were interpreting that, I 
think, as what we would normally see as a P.O. box, you know, 
centrally located P.O. box, you know, like here in the 
mainland. But that not--that is not really the case, I think 
there. So I am seeing, the reports that I have gotten is that 
we have been successfully delivering them to P.O. boxes because 
they are actually physical addresses. And I think the biggest 
thing we have got to do is make sure that we clarify that both 
on the form and that we clarify that for our folks so that 
there is no misunderstanding.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Bost. Thank you.
    Just so you know, Ms. Esty had to leave, so Mr. Lamb has 
moved into the chair, so the Marines are now in charge.
    Mr. Lamb, you are recognized for 5 minutes.
    Mr. Lamb. They are going to give us an Army infantry 
division next, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you to Mr. Matz, 
and Mr. Reeves in particular, for giving us some poetry this 
morning. I really enjoyed that. And it reminded me of a story 
about the building of the World War II Memorial here in 
Washington, D.C. When that was being built, the man who was the 
overall manager of the construction site stayed in a trailer on 
the site where they were building the memorial. And he told a 
story afterward about getting a knock on the door of the 
trailer after hours one night. And there was an older gentleman 
on the other side of the door who had driven across the country 
by himself for two days, from Kansas or someplace like that.
    And when he opened the door, the man just handed over his 
dog tags from World War II. And he told the construction 
manager, ``I just want you to throw those down in the ground 
underneath one of those big pillars that are going in the World 
War II Memorial.''
    And he didn't want anything else. He didn't want his name 
on a plaque. He didn't want a ceremony or anything special. He 
just wanted to know that those are going to be down there 
forever. I think that is consistent with some of the things 
that you gentlemen said, which is that we owe it to veterans 
just to let them know that that connection that they have made 
to each other and to our Nation through their service is never 
going to be broken and that we are never going to let it be 
broken. And that is what I took from your comments. And just 
know that you have a partner here in that effort.
    I also think that, with the passage of time, you know, you 
placed the focus in the right place which was that we need to 
tell the people of this generation and our future generations 
about these men and women who came before us and what they did 
to allow us to still stand on this ground today.
    So with that, I am interested in hearing a little bit more, 
Mr. Reeves, if you don't mind, about the educational program 
and the mobile app that you talked about. How wildly in use is 
that right now? Or where are we going timewise with that?
    Mr. Reeves. Thank you very much for that question.
    And where we are at right now is, as I said, we have nine 
institutions across the country right now that are doing that. 
Now, each one of those institutions has multiple, you know, 
cemeteries that they are actually working with. And it is 
actually happening right now in some of our national 
cemeteries. And what I will do is, just for the sake of time, 
is I will have my staff provide the full list--
    Mr. Lamb. Great.
    Mr. Reeves [continued].--and who is doing what and what the 
program in each area specifically entails, if that would be 
acceptable.
    Mr. Lamb. That would be great, sir. Thank you.
    Mr. Reeves. But I would like to say is, as Members of 
Congress are back in your districts, if you have universities 
that have history and research components, encourage them to 
seek out and apply for these Legacy grants so that I can take 
that to more parts of the country.
    I will tell you that the timeline would move, as everything 
does with the amount of funding that is available for grants, I 
mean, we have to be realistic about that. But my vision is that 
there will be at least one, you know, educational affiliate, 
meaning university or other affiliate, in every State by the 
time I am done with this.
    Mr. Lamb. Excellent.
    I am from the 18th District of Pennsylvania, which has the 
National Cemetery of the Alleghenies there.
    Have you had the chance to visit that one yet, Mr. Reeves?
    Mr. Reeves. I have not been to the Alleghenies yet. 
However, one of my colleagues, one of my senior colleagues at 
the VA actually went and spoke there on Memorial Day, which 
that is what we do, is we ask our senior folks to go out to all 
of our cemeteries. And she came back raving about the beauty of 
the cemetery and the outpouring mainly of the community for 
that program.
    So I am impressed with what they are doing there, and I am 
impressed that--and glad that you mentioned that, because that 
is one of the highlighted places that I had.
    Mr. Lamb. I am thrilled to hear that.
    I am running out of time, so I just want to say, I would 
like to personally invite you out there. The next chance that 
you get, I would love to have you there. And I would love to 
explore ways to expand the educational offerings.
    And I think there are some infrastructural needs there as 
well as with it being a newer cemetery that just came online. 
So I hope I can work with you on than, and I yield back the 
balance of my time.
    Mr. Reeves. Absolutely. And if I may say, I would ask, 
please, encourage the schools in your area to apply.
    Mr. Bost. If it is all right, with the blessing of the 
Committee, I got a couple more questions I would still like to 
ask.
    Mr. Avila, your testimony highlighted a new NCA initiative, 
the pre-need eligibility determination. In your experience, has 
this program successfully reduced delays and red tape for 
veterans and their families?
    Mr. Avila. So the pre-need eligibility program, I believe 
it started several years ago. Veterans can basically file an 
application. It doesn't guarantee them a slot, but it just 
eliminates the initial eligibility criteria that NCA has to 
confirm that a veteran is eligible for interment at National or 
State cemetery. So by having that done, I think the biggest 
thing that we see is that the veteran had that conversation 
with the family, which is a very important conversation to 
have, because most of the time the calls that we receive are 
when a next-of-kin, the spouse or family member, saying, Look, 
my father or brother, veteran, or sister is the veteran that 
passed away. What do we need to do? A lot of it comes to they 
never had the conversation. Where is the D214 that the NCA is 
going to need?
    So we find this program extremely helpful. We think it does 
reduce the waiting period. And like I state on my remarks and 
my testimony, it is not an emergency as far as the waiting. The 
background sheet that NCA provided for us clearly states kind 
of what we have been hearing where the wait time is 32 to 45 
minutes. And this is for the scheduling, not the official 
report or the verification.
    So if you are able to do the pre-need eligibility 
determination and already take out the first step, it is going 
to increase and expedite when this veteran can be interred and 
buried. So, yes, it is beneficial.
    Mr. Bost. Good.
    Secretary Matz, what is the status on the restoration of 
the Clark Veterans Cemetery in the Philippines?
    Mr. Matz. We are making very good headway. As I think I 
covered this very quickly in my opening remarks, what we have 
done since we took it over, we are working very closely with 
Honorable Reeves' agency. They are providing the headstones for 
us. So we are still doing that. We have done a lot of work in 
putting paths in and some security, et cetera.
    I have not been out there yet myself. That is on my visit 
list in the next 2 months to get out and visit the Pacific and 
our superintendent there. But I will tell you, sir, it is 
coming--I have seen photos of it. It is coming along fine, and 
we have certainly got the dollars for it right now to do what 
we need to do.
    Mr. Bost. Good.
    Mr. Matz. And, of course, as you know, its sister right 
there, Manila, which is our largest cemetery of all 26, we are 
doing a lot of work there in the irrigation systems, and also 
in putting a new visitor center there. And also in the Clark, 
we are doing irrigation systems there too.
    Mr. Bost. That is good to hear. Thank you.
    With that, I want to thank the witnesses again. I would 
recognize Mr. Lamb as the Ranking Member if he wants to do any 
closing remarks or--
    Mr. Lamb. No, thank you, Mr. Chairman. But thank you for 
recognizing me.
    Mr. Bost. Thank you.
    Well, I want to thank the witnesses again for being here 
today. And as I said earlier, your statements for today's 
witnesses will be entered into the hearing record.
    And I want to close out by saying this: Thank you so much 
both of you for what you do. And when you say that we need to 
make sure that our veterans--that their history is not 
forgotten.
    When we were in--we were actually at American Flanders 
Field. And watching and hearing their Memorial Day services, 
that they take students from right there that come in and take 
the names of those veterans and study their history. And on 
Memorial Day, students, not from this Nation, from that Nation, 
because of the liberation that they received by our Americans, 
they actually study those histories and give testimony about 
that individual that they had studied that year for that 
Memorial Day. What an amazing thing. And I think our children 
should do the same and understand what it is that put forth, 
not only abroad, but here in the United States with the 
cemeteries that are there.
    But I do want to say this, too, because this is something 
that stuck--that I have held onto. When you leave the museum or 
visitors center at Arlington, one of your predecessors has a 
quote, Mr. Matz, on the wall. That is General Mark Clark. And 
he was the chairman of the American Battle Monuments Commission 
from 1969 to 1984. And here is what he says: ``If ever proof 
were needed that we fought for a cause and not for a conquest, 
it could be found in these cemeteries. Here is our only 
conquest: All we ask was enough soil in which to bury our 
gallant dead.'' That is hallowed soil. That is hallowed soil. 
And we need to make sure that that ground, which we do hold 
with our most gallant men and women, is never ever forsaken. 
And I thank both of you for doing that.
    Mr. Matz. Absolutely, sir. Thank you.
    Mr. Reeves. Thank you, sir
    Mr. Bost. With that, I also want to--with unanimous 
consent, that all Members have 5 legislative days to revise and 
extend their remarks, including extraneous material. Hearing no 
objection, so ordered.
    This hearing is now adjourned.

    [Whereupon, at 12:27 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                   Prepared Statement of Randy Reeves
    Mr. Chairman, Ranking Member, and Members of the Subcommittee, I am 
pleased to be here today to provide the views of the Department of 
Veterans Affairs (VA) on the maintenance, construction, and expansion 
of cemeteries managed by the VA, including VA's plans to provide burial 
access for eligible Veterans within 75 miles of the Veterans' home. I 
would also like to provide you with information about other VA 
memorialization programs, which help demonstrate our Nation's 
appreciation for the sacrifices made by Veterans and their families. I 
appreciate the presence of Mr. Matz, representing the American Battle 
Monuments Commission (ABMC), a strong partner with VA in these same 
efforts. I defer to him to provide information about ABMC's similar 
efforts. I am also honored by the presence of our key Veteran service 
organization partners, who provide such critical support to us and the 
Veteran community.
    First, let me tell you how proud and honored I am to serve 
America's Veterans and their families as the sixth Under Secretary for 
Memorial Affairs at the National Cemetery Administration (NCA). NCA is 
a world-class organization with a long-standing commitment to caring 
for Veterans and their families in perpetuity at our 135 VA national 
cemeteries in operation. Every day we have the honor and privilege to 
fulfill President Lincoln's promise, to care for those who shall have 
borne the battle.
    Earlier this year, I shared my vision with NCA's staff and outlined 
my priorities as Under Secretary. These priorities are based on my own 
guiding principles, and align not only with VA's core mission and NCA's 
Long Range Plan, but also with the subjects of this hearing. As I speak 
to you today, I will touch on these principles of ``Preserving the 
Legacy,'' by which I hope we can ensure that ``no Veteran ever dies''; 
of ``Providing Access; and Choosing VA'' by building on NCA's strategic 
goal to provide reasonable access to a burial option in a national or 
VA-funded state or tribal Veteran's cemetery to 95 percent of U.S. 
Veterans; and finally of ``Partnering to Serve Veterans,'' as shown by 
NCA's strong history and bright future of working with communities and 
organizations to raise the national profile and importance of the 
American civic tradition of honoring Veterans through memorialization.
    NCA is dedicated to preserving the memory of our Nation's Veterans. 
In our 135 national cemeteries, we provide perpetual care for eligible 
Veterans, Servicemembers, Reservists and family members in 3.6 million 
gravesites. Our cemeteries include 9,138 developed acres.
    One of NCA's strategic goals is to provide reasonable access 
(access within 75 miles of a Veteran's residence) to a burial option in 
a national or VA-funded state or tribal Veteran's cemetery to 95 
percent of U.S. Veterans. NCA strives to achieve this goal, in part, by 
establishing new national cemeteries and expanding or replacing 
existing national cemeteries. We also partner with state and tribal 
organizations through our Veterans Cemetery Grants Program.
    NCA determines the need to open a new national cemetery based on 
whether 80,000 or more Veterans reside within a 75-mile service area of 
a proposed cemetery location, and who do not already have reasonable 
access to burial in a VA national or VA-funded state or tribal Veterans 
cemetery. Under these criteria, which were approved by Congress in 
fiscal year (FY) 2011, NCA determined a need to establish five new 
national cemeteries. In 2015, we opened two of these cemeteries in 
Florida at Cape Canaveral and Tallahassee. On August 5, 2016, we 
dedicated Omaha National Cemetery and on May 25th, we dedicated our 
136th national cemetery in southern Colorado that will serve over 
95,000 Veterans and their families. We anticipate a construction award 
in this fiscal year for a new national cemetery in western New York.
    NCA also recognizes the need to provide new or enhanced burial 
access in certain rural and urban locations. Under the rural 
initiative, NCA will establish new national cemeteries in states that 
do not have an open national cemetery and have areas where fewer than 
25,000 Veterans reside within a 75-mile service area of a proposed 
cemetery site. These Veterans do not already have reasonable access to 
a VA national cemetery in another state or a VA-funded state or tribal 
Veterans cemetery that offers a casketed or cremation first interment 
option. NCA opened its first rural cemetery at Yellowstone National 
Cemetery in Montana in 2014. Progress is underway for rural national 
cemeteries in seven other locations: Twin Falls, Idaho; Fargo, North 
Dakota; Rhinelander, Wisconsin; Cheyenne, Wyoming; Elko, Nevada; Cedar 
City, Utah; and Machias, Maine.
    NCA's urban initiatives are planned for St. Albans, New York; West 
Los Angeles, California; Alameda, California; Indianapolis, Indiana; 
and Chicago, Illinois. At these sites, NCA plans to establish new 
columbaria-only national cemeteries to enhance service in urban areas 
where distance and travel time from the center of the city (urban core) 
to an existing national cemetery present barriers to visitation and 
contribute to lower usage rates than national cemeteries in other 
large, urban areas.
    NCA also expands existing national cemeteries to maintain current 
burial access options. We appreciate the recent passage of the Black 
Hills National Cemetery Boundary Expansion Act, which will allow NCA to 
obtain land from the Bureau of Land Management (BLM) that is adjacent 
to our existing national cemetery.
    Our discussion of final resting places for Veterans would not be 
complete without including the valuable partnerships we have 
established with the state and tribal organizations through our 
Veterans Cemetery Grants Program (VCGP). In 2018, we are celebrating 
the 40th anniversary of the program. VCGP was established in 1978 to 
complement service provided by VA's national cemeteries. The program 
assists states, territories and tribal governments in providing 
gravesites for Veterans in those areas where NCA cannot fully satisfy 
their burial needs. Grants may be used to establish, expand or improve 
Veterans cemeteries that are owned and operated by a state, territory 
or tribal government or to assist the states or tribal communities with 
issues of operation and maintenance.
    VCGP has awarded over $766 million in grants since 1978, funding 
109 state and tribal cemeteries in 47 states, Guam and Saipan, and 11 
operational tribal cemeteries. In FY 2017, these cemeteries provided 
38,219 burials.
    All of these initiatives are designed, as I mentioned, to meet 
NCA's strategic goal of providing reasonable access to 95 percent of 
eligible Veterans. We are currently at 92 percent, and when we attain 
our strategic goal, we know there are others-those that I call the 
``hardest 5 percent''-who still would be outside our reasonable access 
standard. We continue to look for ways to reach them as well, and are 
open to working with you to find innovative approaches to do that.
    Of course, NCA leads the way in providing a variety of world class 
burial and memorial benefits for Veterans and their families. But 
beyond providing perpetual care in our national cemeteries, NCA is 
working on several exciting initiatives that will ensure lasting 
tributes to the sacrifices made by Veterans and their families.
    NCA is striving to embrace technology by making significant 
improvements to our digital landscape to better serve the Veterans and 
their families. For example, in September 2017, we launched a new NCA 
mobile site. This mobile redesign has easy-to-understand language, 
intuitive file paths, a sleek design, and a user-friendly interface. 
Some of the improvements to the mobile site and to the overall user 
experience include integration with popular maps; the ability to link 
to or display a cemetery map; and integration with the new cemetery 
lookup feature.
    Also in 2017, VA inaugurated the Veterans Legacy Program (VLP), a 
series of unique partnerships between VA and academic institutions, 
which engage university students to research Veterans' stories, make 
their stories accessible to the public, and teach K-12 students what 
they learned about Veterans. While similar in their mission to 
memorialize Veterans through student engagement, each of the 
partnerships reflects the unique characteristics of the local 
communities. VA will expand these partnerships in the future. To date, 
Legacy programs have engaged 38 university professors and 64 K-12 
teachers. The programs have impacted approximately 750 undergraduates 
and 6,400 K-12 students. Legacy programs have produced 42 lesson plans 
for K-12 teachers, 119 Veteran biographies, and 6 Veterans cemetery 
walking tours, all based on research conducted on-site in national 
cemeteries by students. To maximize programmatic flexibility, the 
Legacy program is seeking grant authority through an FY 2019 
legislative proposal, as grants are Federal award instruments that most 
universities use. The award and distribution process for grants 
provides a valuable tool that will allow NCA to manage programs and 
stakeholders in a more responsive and efficient manner.
    The Legacy program partnered with the American Battle Monuments 
Commission on the Understanding Sacrifice program of teacher education. 
Teachers from all over the country participated in this program to 
learn about the Pacific Theater of World War II and to do research on 
hometown heroes of that war who are interred in NCA and ABMC 
cemeteries. ABMC and VLP will continue their partnership in a new 
program in FY 2018.
    VLP and the Library of Congress worked with the Department of the 
Army to host cadet-interns from the United States Military Academy at 
West Point, New York. They spent their first 3 days in Washington, DC, 
learning the basics of Veteran research, and then they went to Fort 
Snelling National Cemetery and Santa Fe National Cemetery, where they 
worked on researching Veterans in those cemeteries.
    Complementing Legacy research and engagement efforts, VA took the 
first steps of a major transformation of public digital engagement in 
Veteran memorialization. VA is creating an interactive website, which 
we expect to be operational in 2019, that will enable virtual 
memorialization of the millions of Veterans buried at VA national 
cemeteries. When fully implemented, the platform will allow online 
visitors to pay their respects and will permit researchers, students, 
and professionals to share information about more than 3.2 million 
Veterans memorialized by NCA. Most importantly, it will allow families 
to upload materials related to a Veteran's service, such as letters, 
pictures, and videos, to be shared with the public. Visitors to a 
gravesite will be able to use their smartphones or other devices to 
``scan'' a Veteran's headstone and access the uploaded information, 
thereby creating an interactive memorial experience.
    All of these efforts will help ensure that ``no Veteran ever 
dies.'' This may seem an odd statement, but let me explain. It has been 
said that we all die two deaths. The first, a physical one, and the 
second, the last time someone speaks our name. As Under Secretary, I am 
dedicated to ensuring that the names of our Veterans laid to rest in 
our VA national cemeteries, and those Veterans buried in state and 
tribal Veterans cemeteries around the country, are never forgotten for 
their service to our Nation. As long as we remember and continue to 
speak their names and share their stories, they are never truly gone. 
This is my commitment-and that of all NCA team members-to the families 
and friends of loved ones now not with us.
    This concludes my statement, Mr. Chairman. We would be happy now to 
entertain any questions you or the other members of the Subcommittee 
may have.

                                 <F-dash>
            Prepared Statement of Honorable William M. Matz
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to discuss the mission, operations and programs of the 
American Battle Monuments Commission. The subject of this hearing - 
Honoring Heroes: Memorializing our Nation's Veterans - is so 
appropriate to our agency mission, and that sentiment inspires the 
thoughts I share with you this morning.
    Since the agency's establishment in 1923, our purpose has not 
changed - to commemorate the service and achievements of America's 
armed forces - yet our methods have changed. We execute our mission by 
creating memorials worldwide where U.S. forces have served, and by 
maintaining overseas military cemeteries - shrines to our fallen and 
those that fought by their side - to a standard appropriate to the 
sacrifice they represent.
    Our first Chairman, General John J. Pershing, set the tone for the 
Commission when he wrote that, ``Time will not dim the glory of their 
deeds.'' These simple but powerful words are the foundation of 
everything we do. The cemeteries and memorials we administer have been 
entrusted to our care by the American people - we take that as a solemn 
responsibility.
    When the President selected me to serve as Secretary of the 
Commission, he presented me with an opportunity of a lifetime; one I 
don't take for granted. Preserving these ``national treasures'' as 
symbols of selfless devotion and beacons of freedom is not a job; it is 
a reverent calling, a duty.
    Over Memorial Day weekend, we conducted ceremonies in 26 
cemeteries, in 10 countries across four continents. On Sunday morning 
of that weekend, I stood at a podium at Aisne-Marne American Cemetery 
in France. The Aisne-Marne cemetery and the Belleau Wood battlefield 
behind it honor those who fell in the Aisne-Marne Campaign. Ten U.S. 
Army divisions and one U.S. Marine Corps brigade fought alongside 
French comrades in arms, in America's first major offensive campaign of 
the war. Memorialized there, shoulder-to-shoulder, are more than 2,600 
soldiers and nearly 500 Marines, who died during that campaign with the 
common goal of making the world safe for democracy and bringing a final 
peace to Europe.
    That Sunday afternoon we were at the Oise-Aisne American Cemetery, 
where we again offered our thanks and respect to those who served and 
died in service to our Nation. 6,012 war dead are buried on those 
beautiful grounds and 241 are listed as missing - most of whom lost 
their lives on nearby battlefields. One of the dead is Sergeant Joyce 
Kilmer, 165th Infantry, 42nd Division - he rests in Plot B, Row 9, 
Grave 15. Probably best known for writing the poem Trees, he also wrote 
these prophetic words taken from his poem Rouge Bouquet:

        THERE IS ON EARTH NO WORTHIER GRAVE
        TO HOLD THE BODIES OF THE BRAVE
        THAN THIS PLACE OF PAIN AND PRIDE
        WHERE THEY NOBLY FOUGHT AND NOBLY DIED.

    Kilmer's poem speaks of life and death. Joyce Kilmer didn't have to 
put his life on the line. He served as the senior regimental 
statistician under the direction of the regimental chaplain. But that 
didn't meet his personal criteria for service to his country. He 
requested a transfer to the regimental intelligence section, knowing it 
would get him closer to the front lines. In July 1918, Kilmer's 42nd 
``Rainbow'' Division was attempting to break German defensive positions 
along the Ourq River, a few kilometers from the cemetery. In eight days 
of fighting, the Rainbow Division lost 5,500 men - one of those men was 
Sergeant Joyce Kilmer.
    On Sunday evening, I stood behind a ribbon at the Chateau-Thierry 
Monument, not far from the Aisne-Marne cemetery, to dedicate a new 
visitor center that tells the story of men and women like Joyce Kilmer; 
providing historical context for the events that occurred there 100 
years ago; preserving the memory of the thousands of Joyce Kilmer's, 
whose unselfish willingness to serve a cause greater than them, allows 
us to live in a world that would be a much different and desirable 
place than the one we enjoy today.
    One Sunday in May - three historic sites of honor and commemoration 
- underscoring the importance of this morning's theme: Honoring Heroes: 
Memorializing our Nation's Veterans.
    What motivates a man to leave the safety of his trench, to crawl 
through barbed wire to attack enemy positions with rifle and bayonet 
when artillery and machine gun fire halts his unit's advance? What 
motivates someone to ignore their own wounds to care for others, all 
while under enemy fire? How do we ensure that we never forget such 
courageous service and sacrifice?
    Since the 2007 opening of our Normandy American Cemetery Visitor 
Center, ABMC has recognized its responsibility to answer those 
questions by ``telling the stories'' of the men and women honored at 
its cemeteries and monuments, providing historical context for visitors 
now far removed from the events of the war years. Following the world 
wars, no one had to tell our visitors the story. They were the mothers 
and fathers, the widows, the brothers and sisters of the war dead. They 
did not seek nor require context; they knew all too well the story. 
They came to grieve not to learn . they came to say farewell.
    Meticulously maintaining cemeteries and memorials is and will 
remain ABMC's core mission. But that alone is no longer enough to honor 
those who served; the Commission must also preserve and communicate 
their stories of competence, courage, and sacrifice. The visitor center 
at Chateau-Thierry is the seventh the Commission has opened since 2007. 
Three more are in development, all with a common purpose - to enrich 
the visitor's experience and understanding of the importance of these 
sacred sites, and the significance of the historic events that led to 
their creation.
    We also, over the past several years, have aggressively pursued an 
educational outreach program in the U.S., through partnerships with 
universities and organizations like National History Day and the 
National World War II Museum in New Orleans. I invite you to visit our 
educational program website at ABMCeducation.org - to view the wealth 
of stories and lesson plans developed by teachers for teachers. We are 
updating the World War I materials, and we have begun to partner with 
the National Cemetery Administration on World War II content, tying the 
stories of our stateside national cemeteries to those from our overseas 
commemorative sites.
    Through all of this, we have not forgotten our core mission of 
building monuments to commemorate service and sacrifice. Last year ABMC 
dedicated its 28th and 29th Federal markers in Dartmouth, England: a 
granite monument commemorating the Allied build-up, training and launch 
of the D-Day invasion from the shores of England, and a commemorative 
bronze plaque in the Britannia Royal Naval College, which served as XI 
Amphibious Force headquarters in World War II. Later this year, at the 
invitation of the Government of New Zealand, we expect to dedicate a 
U.S. memorial in the National War Memorial Park in Wellington. And a 
monument in Iceland commemorating operations there in World War II is 
in the early stages of development. When completed, these two 
commemorations will bring the total number of ABMC memorials, monuments 
and markers to 31.
    Next year, we will commemorate the 75th anniversary of the D-Day 
landings. To prepare for that historic event we are refreshing the 
exhibits and media at the Normandy visitor center, recognizing that 11 
years have passed since the original exhibits opened to the public. And 
over the next couple of years, we also will improve the cemetery's 
entrance traffic flow and parking, upgrade and add to existing comfort 
facilities, and revamp security screening areas to better handle peak 
visitation periods.
    At the Pointe du Hoc Ranger Monument, west of Normandy, we are 
developing a site master plan to address the challenges posed by the 
dual need of providing visitors a positive and safe experience while 
protecting the integrity of this historic cultural landscape. The plan 
will be completed by the end of this fiscal year, allowing us to define 
specific actions, timelines and costs for the way ahead. Together, 
Normandy and Pointe du Hoc are our most visited sites worldwide.
    With the support of the Subcommittee, we assumed ownership of the 
Lafayette Escadrille Memorial Cemetery outside Paris in January 2017. 
The memorial honors American combat aviation pioneers, 49 of whom are 
interred in the crypt beneath the monument. We will better tell their 
incredible story next year, when we complete a conversion of an old 
caretaker's cottage on the site into a small visitor center. We hope to 
dedicate the new center on Memorial Day 2019.
    The memorial cemetery is located in a rustic park environment, 
which makes impractical the maintenance of a ``fine lawn'' standard as 
seen in our cemetery plot areas. Nonetheless, a maintenance and 
rejuvenation plan has been completed by an arborist specialized in the 
care of ancient woodlands, who will oversee the execution of the effort 
to improve the appearance of the grounds while preserving their 
naturally rustic character. We also have plans to waterproof and repave 
the memorial terrace, improve the accessibility ramp, and replace paths 
and curbstones to raise the memorial's condition to ABMC standards.
    Finally, I am happy to report that the restoration of Clark 
Veterans Cemetery in the Philippines is progressing well. We have 
obligated the $5 million authorized for the restoration, and are in the 
final stages of improvements in the plot areas, where the headstones 
had been partially buried and unreadable since the volcanic eruption of 
Mt. Pinatubo in 1991. I want to thank the National Cemetery 
Administration for partnering with us to provide more than 3,000 new 
headstones to replace those at Clark cemetery that had been damaged 
beyond repair.
    All of these programs and projects have a singular focus, to honor 
and memorialize America's armed forces - our heroes - for their 
unselfish and dedicated service and sacrifice.
    The poet Archibald MacLeish served as an ambulance driver and later 
as an artillery officer in World War I. He fought in the Second Battle 
of the Marne. His brother was killed in action during the war. 
MacLeish's poem - The Young Dead Soldiers - includes this eloquent and 
timeless challenge:

        THEY SAY, WE WERE YOUNG, WE HAVE DIED,
        REMEMBER US .
        THEY SAY, WE LEAVE YOU OUR DEATHS:
        GIVE THEM THEIR MEANING.

    So many have given us their deaths - it is for us, and our 
children, for generations to come, to give them meaning. That is and 
will remain the mission of the American Battle Monuments Commission.

                                 <F-dash>
                  Prepared Statement of Gerardo Avila
    Chairman Bost, Ranking Member Esty and distinguished members of the 
Subcommittee on Disability Assistnce and Memorial Affairs (DAMA); on 
behalf of National Commander Denise H. Rohan and the 2 million members 
of The American Legion, the largest patriotic service organization for 
veterans, serving every man and woman who has worn the uniform for this 
country, thank you for the opportunity to testify regarding the 
Department of Veterans Affairs (VA) National Cemetery Administration 
(NCA).

BACKGROUND

    NCA's mission is simple: to honor veterans and their families with 
final resting places in national shrines and with lasting tributes that 
commemorate their services and sacrifice to our nation. This veteran-
centric mission can be traced back to President Abraham Lincoln, who 
famously stated, ``To care for him who shall have borne the battle and 
for his widow, and his orphan,'' which is now the mission of the entire 
Department of Veterans Affairs.
    On July 17, 1862, President Lincoln signed legislation (Omnibus Act 
Public Law 165 \1\) authorizing the President of the United States the 
power to purchase lands and establish national cemeteries to bury 
soldiers who died in the service of the country. In 1973 Public Law 93-
43 authorized the transfer of 82 national cemeteries from the 
Department of the Army to the Department of Veterans Affairs, 
essentially creating and establishing the NCA.
---------------------------------------------------------------------------
    \1\ Omnibus Act Public Law 165: https://www.cem.va.gov/cem/history/
timeline/timeline-1862.asp
---------------------------------------------------------------------------
    NCA operates 135 national cemeteries, 33 soldiers' lots, along with 
monument sites in 40 states and Puerto Rico. Under its current purview, 
NCA is responsible for perpetuity care of 4.5 million interred 
veterans, veterans of every war and conflict, and family members. NCA 
also provides funding to establish, expand, improve and maintain 105 
veteran cemeteries in 47 states and territories including tribal trust 
lands, Guam, and Saipan. For veterans not buried in a VA national 
cemetery, NCA provides headstones, markers or medallions, to 
commemorate their service \2\. During fiscal year 2017, NCA conducted 
over 171,000 interments in National and State cemeteries, provided more 
than 361,000 headstone and markers, 13,000 bronze medallions, and 
670,000 Presidential Memorial Certificates \3\.
---------------------------------------------------------------------------
    \2\ Arlington National Cemetery Report to Congress: https://
www.arlingtoncemetery.mil/Portals/0/Docs/Public-Notices/ANC-Capacity-
Planning-Congressional-Report-Apr-2017.pdf
    \3\ 2017 NCA Annual Report: https://www.cem.va.gov/pdf/NCA--YIR--
FY2017.pdf

---------------------------------------------------------------------------
NCA's SATISFACTION SURVEY

    NCA's yearly customer satisfaction survey consistently receives 
ranks in the mid-nineties, the results of the latest survey ranked it 
99% on cemetery appearance, 96% on quality of service, and 99% of 
responders say they would recommend it to other veterans \4\. The 
American Legion has engaged our membership and we regularly hear 
veterans echo the sentiments found in the NCA yearly satisfaction 
survey. We frequently receive calls complimenting the level of 
professionalism displayed by NCA employees when rendering final 
respects to their loved one, which is undoubtedly during a very 
difficult and emotional time.
---------------------------------------------------------------------------
    \4\ ACSI Report, January 31, 2017: https://content.govdelivery.com/
accounts/USVANCA/bulletins/184ee83
---------------------------------------------------------------------------
    The families often share with The American Legion that NCA is 
surprisingly well-managed, understanding, and extremely helpful, which 
is quite contradictory to the expectations they had considering NCA is 
a division of the Department of Veterans Affairs, the second largest 
bureaucracy in the federal government. Having a process that is easy to 
navigate is appreciated by families and veterans.

NCA INITITATIVES

    In an effort to provide a higher level of quality service and 
improve customer satisfaction, NCA has implemented new initiatives and 
continues its efforts to provide a burial option to veterans within 75 
miles from their home. NCA estimates that 92% of all living veterans 
currently have this option available to them, provided by a national or 
state cemetery \5\.
---------------------------------------------------------------------------
    \5\ NCA FY 2017 Year In Review Report: https://www.cem.va.gov/pdf/
NCA--YIR--FY2017.pdf
---------------------------------------------------------------------------
    Furthermore, 2018 marks the 40th anniversary of the Veterans 
Cemetery Grants Program (VCGP) which has been instrumental in providing 
gravesites for veterans in areas that is not supported by NCA or a 
state cemetery. VCGP is designed to complement NCA's 135 national 
cemeteries across the country. It helps states, federally recognized 
tribal governments or U.S. Territories establish new veterans 
cemeteries, and expand or improve existing veterans cemeteries. To 
date, nearly $800 million has been granted to establish, expand or 
improve cemeteries to provide a final resting place for veterans and, 
in certain cases, their families \6\.
---------------------------------------------------------------------------
    \6\ National Cemetery Administration: https://www.cem.va.gov/cem/
grants/
---------------------------------------------------------------------------
    There are two NCA initiatives that we have chosen to highlight. 
They are the Veterans Legacy Program and the Pre-Need Eligibility 
Determination initiative.

    <bullet>  The Veterans Legacy Program (VLP) is a grant-based 
partnership with local universities which allows them to conduct 
genealogy research on veterans buried at NCA cemeteries. One of the 
goals of the program is to carry the legacy of service and veterans 
forward by educating the community and the nation of the sacrifice made 
by these selfless heroes. It is said that we die twice: when we 
physically take our last breath; and when people don't remember our 
names. The Veterans Legacy Program is an important step to ensure that 
veterans are never forgotten.
    <bullet>  The Pre-Need Eligibility Determination initiative makes 
it easier for veterans and their families to plan ahead for difficult 
situations. The Pre-Need Eligibility Program is helpful in minimizing 
delays when trying to finalize a veteran's final wishes. Veterans are 
typically involved in this process, allowing them to dictate and share 
their desires.

AMERICAN LEGION ENGAGEMENT & RESOLUTIONS

    Ensuring veterans receive the postmortem respect they deserve is a 
priority of The American Legion. In 1962, The American Legion created 
and established the Graves Registration and Memorial Affairs Committee, 
now known as the National Cemetery Committee, an internal committee 
designed to focus on these important issues impacting all veterans. The 
American Legion maintains a professional staff dedicated to formulate 
and recommend to our National Executive Committee, through the Veterans 
Affairs & Rehabilitation Commission, polices, plans and programs as 
they relate to the Department of Veterans Affairs, National Cemetery 
Administration, and the internment of veterans, active duty 
servicemembers and their dependents.
    In response to issues and concerns, The American Legion created and 
passed two resolutions at our 2016 National Convention in Cincinnati, 
Ohio. Through Resolution No. 237, The American Legion supports 
legislation to amend Code of Federal Regulation 38-632 and specify that 
VA recognize accredited representatives be authorized to apply for 
headstone, markers or medallion, in the absence of next-of-kin \7\. 
This common-sense resolution was created because we have seen a number 
of cases where a deceased veteran was not able to receive a grave 
marker or have a replacement issued due to damage, simply because a 
relative did not make the request. This sometimes happens because there 
is no next-of-kin available or aware.
---------------------------------------------------------------------------
    \7\ Resolution No. 237 Authorization to Apply for a headstone, 
Marker, or Medallion https://archive.legion.org/bitstream/handle/
20.500.12203/5561/2016N237.pdf?sequence=1&isAllowed=y
---------------------------------------------------------------------------
    The American Legion also created and passed Resolution No. 9, 
allowing us to support the transfer of land from the Bureau of Land 
Management to the NCA to expand the Black Hills National Cemetery in 
South Dakota, to ensure ample land and space for future expansion \8\.
---------------------------------------------------------------------------
    \8\ Resolution No. 9 Black Hills National Cemetery Expansion 
https://archive.legion.org/bitstream/handle/20.500.12203/5741/
2016N009.pdf?sequence=4&isAllowed=y
---------------------------------------------------------------------------
    Two weeks ago, on May 25th, President Trump signed legislation 
transferring approximately 200 acres to expand the cemetery. The 
passing of this legislation confirms the commitment and obligation we 
have to honor the memory of those that have served the United States of 
America in uniform.

CONCERNS

    The American Legion is not aware of any obstacles to access for any 
veteran wishing that their final resting place be a cemetery operated 
by the NCA. That stated, we do receive inquiries and concerns on two 
topics: the issuing of NCA headstone or markers for veterans buried in 
private cemeteries; and wait times when calling the scheduling office 
in St. Louis, MO.

    1.The current policy authorizes NCA to issue a headstone or marker 
for any unmarked grave. For graves that are marked with a private 
marker, NCA will provide a headstone or marker for veterans who died on 
November 1, 1990 to present. Veterans who died prior to this date, can 
be provided with a medallion to commemorate their veteran status. The 
American Legion firmly believes there should not be inconsistency or 
discrepancy between veterans based on era of service, and our members 
are in favor of having NCA headstones replace the private markers, if 
the veteran or veteran's family prefers.

    2.Shortly after a veteran passes away, it is incumbent of the 
family to contact NCA and begin the process of burial planning, 
regardless of the location of the cemetery (private or NCA operated). 
Coordinating funeral arrangements may be overwhelming and many people, 
who have gone through the process, have expressed their concerns about 
the amount of time spent waiting for an NCA representative to speak 
with them on the phone. Once the family makes contact, the process, as 
described, is great. The American Legion is concerned with the long 
wait times family members and veterans are enduring to speak to an NCA 
representative during this emotional period.

    It is our sincere hope that VA, NCA and this committee take a 
closer look, identify and make the necessary corrections to the 
discrepancy between veterans who are authorized a headstone or marker 
at private cemeteries and those who are not, and eliminating the wait 
times at the scheduling office.

CONCLUSION

    Chairman Bost, Ranking Member Esty, and distinguished members of 
this veteran-centric committee, The American Legion thanks you for the 
opportunity to elucidate the position of the 2 million veteran members 
of this organization.
    Ensuring that those who have selflessly raised their right hand in 
defense of this nation receive the honorable and respectful final 
resting place they deserve is a priority of The American Legion, and by 
action of this committee, we can see that it is for you as well.
    For additional information regarding this testimony, please contact 
Mr. Matthew Shuman, Director of The American Legion's Legislative 
Division at (202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ce1ffe4f9e1ede2cce0e9ebe5e3e2a2e3feeba2">[email&#160;protected]</a>

                                 <F-dash>
                   Prepared Statement of Ken Wiseman
    Chairman Bost, Ranking Member Etsy and members of the Subcommittee, 
on behalf of the Veterans of Foreign Wars of the United States (VFW) 
and its Auxiliary, thank you for the opportunity to testify on the 
important issue of how our nation memorializes our veterans.
    The Department of Veterans Affairs' (VA) mission to provide 
veterans a final resting place worthy of their sacrifice to our nation 
is a top priority for the VFW. While the National Cemetery 
Administration (NCA) and the American Battle Monuments Commission 
(ABMC) generally do a good job, there are always ways to improve the 
delivery of memorial benefits to veterans. As such, our focus concerns 
staffing and IT issues, our support for the Veterans Legacy Project 
(VLP) and ABMC's efforts at several locations, our concerns with VA's 
call center for burials, and the VFW's position on Arlington National 
Cemetery (ANC) and the Mare Island Naval Cemetery.
    VFW Post 605 in Paris, France, reports that the ABMC efforts to 
care for cemeteries and monuments have resulted in some of the most 
emotionally moving experiences a visitor could have. Efforts by ABMC to 
establish visitor centers will allow visitors to properly honor and 
remember those who are buried in the cemeteries. These centers will 
also allow for better use of staff so that they can focus on other 
management aspects of their jobs. The VFW supports ABMC's efforts to 
establish and refurbish visitor centers.
    The ABMC management of Clark Cemetery in the Republic of the 
Philippines is another success story that the VFW is proud to report. 
VFW Post 2485 in Angeles City, the Philippines worked from 1994 until 
2013 to maintain the cemetery and conduct burials after the closure of 
Clark Air Force Base. VFW Post 2485 notes that the repairs and 
maintenance of the cemetery are superior and burials continue in a way 
that allows Americans to be buried there with honor.
    The VFW is very supportive of NCA's Veterans Legacy Project. VLP 
will allow for the use of technology so that every grave in a VA-
managed cemetery can be seen and a biography about each veteran can be 
read. Updates on each veteran can be provided to ensure the profile is 
as accurate as possible and truly reflects the life of the veteran. The 
VFW understands the desire of families to ensure that any edits are 
correct and appropriate, and we support NCA's inclusion of the families 
in the development of these biographies and in review of future 
updates. Modern technology will allow VLP to be viewed through a mobile 
application and online enabling future generations to learn about the 
sacrifices made by generations who came before them.
    Survivors are generally satisfied with services provided by NCA. 
However, the VFW has learned that the call center for all VA-managed 
burials has become overwhelmed due to staffing issues. A surviving 
spouse of a veteran reported she was told it would be at least six 
weeks before a burial could be processed. This is unacceptable. The VFW 
calls for a review to ensure proper staffing is in place so that 
burials can be scheduled in a timely manner.
    Arlington National Cemetery is a national shrine and continues to 
be a highly active cemetery. The VFW understands recent efforts by the 
Department of the Army to evaluate ways to ensure Arlington remains an 
active cemetery for future service members killed in action and Medal 
of Honor recipients. While the VFW cannot support many of the options 
being considered to extend the life of Arlington National Cemetery, 
there are several options to ensure the longevity of this national 
shrine without severely limiting eligibility. After many meetings with 
top officials within the Office of the Secretary of Defense and the 
Department of the Army, as well as surveys and roundtables conducted by 
ANC, the VFW supports restricting eligibility to veterans who served 24 
months of active-duty service. This does not include those killed in 
action or the dependents of active-duty service members with more than 
24 months of service, who must continue to be eligible. Enacting this 
eligibility restriction would make the in-ground interment policy at 
ANC commensurate with that of cemeteries within VA's National Cemetery 
Administration and would reduce workload at ANC by approximately 200 
burials per year.
    While the VFW acknowledges that restricting eligibility to those 
killed in action or to Medal of Honor recipients would ensure that ANC 
remains open in perpetuity, the VFW has an obligation to advocate for 
and preserve the integrity of the option best suited to do the most 
good for the most number of veterans. Restricting eligibility to a very 
small category of veterans is not feasible if the true goal is to 
provide those who deserve to be laid to rest in America's most hallowed 
grounds the ability to do so, specifically those who are already making 
end-of-life plans based on their current eligibility.
    To the VFW, it is imperative that the way forward includes the 
acquisition of additional space in some form or another, as land is a 
finite resource, especially in the Washington, D.C., metro area. This 
is why the VFW fully supports the proposed southern expansion, which 
would add an additional 37 to 40 acres to the cemetery and provide 
approximately 40,000-60,000 new gravesites. When combined with the 
proposed 24-month eligibility restriction, the life of the ANC would be 
extended through 2074.
    As previously stated, there is no easy answer in terms of what 
happens after 2074 given the current land shortage in the area. 
However, there is one property in the area that may offer a solution -- 
the Armed Forces Retirement Home. For the past decade, VFW members have 
donated time and manpower to assist the residents of the Armed Forces 
Retirement Home by helping to maintain the property through various 
service projects. Every year we go out and we see unused space. We see 
a golf course that is struggling to remain open. We read articles in 
the local press concerning proposals to develop up to 80 acres of 
excess space on the property for commercial use, but have seen such 
requests go unnoticed.
    The cemetery at the Armed Forces Retirement Home is arguably one of 
the most historic and oldest cemeteries in this country, aside from 
ANC. From 1861 to 1864, the cemetery accepted thousands of soldiers' 
remains from the Union states, which quickly filled the grounds to 
capacity. An 1874 report on the cemetery chronicled more than 5,600 
interments, including 278 unknown, 125 Confederate prisoners of war, 
and 117 civilian relatives of the deceased and employees of the 
retirement home. In 1883, more than nine additional acres were added to 
the grounds, bringing the cemetery's total size to nearly sixteen 
acres. Additionally, the cemetery is the final resting place of 21 
Medal of Honor recipients. Given that the southern expansion would 
reclaim 40 acres at ANC which would provide an additional 40,000-60,000 
gravesites, then it follows that reclaiming the 80 acres of surplus 
land at the Armed Forces Retirement Home would give us an additional 
80,000-120,000 gravesites, which would push us well beyond 2074. The 
VFW considers reclamation to be a viable option.
    Another option is additional support for state cemeteries. 
Expansion of current cemeteries in the Capitol region and construction 
of new cemeteries is an option the VFW supports. For example, Virginia 
operates state veteran cemeteries and is in the process of adding a new 
cemetery in the northern portion of the state. Actions like this will 
help solve the problem of needed space for burials.
    The VFW strongly supports passage of H.R. 5588, legislation that 
would transfer the Mare Island Naval Cemetery to NCA for management. 
The U.S. Navy used this cemetery as the final resting place of more 
than 800 veterans. Concern that non-veterans had been buried there has 
been raised as a possible reason to prevent NCA from managing the 
cemetery. The VFW feels that the Navy made the decision to bury those 
people there, that the decision should be respected, and that this is 
not a reason to oppose the legislation. This cemetery is in disrepair 
and the VFW will never support allowing the final resting place of 
veterans to be forgotten.
    The lasting legacy of those who have served our country is on 
display in cemeteries and is a testament to the cost of freedom. While 
our nation remembers the service of veterans who are no longer with us 
on Memorial Day, NCA and ABMC ensure that a daily reminder withstands 
the test of time.
    Mr. Chairman, this concludes my testimony. I am prepared to take 
any questions you or the subcommittee members may have.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
